TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                         Fiscal Year 2010 Statutory Review
                                 of Restrictions on
                           Directly Contacting Taxpayers



                                           June 3, 2010

                              Reference Number: 2010-30-060




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                     HIGHLIGHTS


FISCAL YEAR 2010 STATUTORY                               In a total of four instances, both TIGTA’s Office
REVIEW OF RESTRICTIONS ON                                of Investigations and Office of Audit confirmed
DIRECTLY CONTACTING TAXPAYERS                            that IRS personnel improperly bypassed
                                                         taxpayer representatives. The Office of
                                                         Investigations determined that the responsible
Highlights                                               IRS personnel were reprimanded for their
                                                         actions. The Office of Audit determined that
Final Report issued on June 3, 2010                      there was no evidence that a representative or
                                                         taxpayer complaint was filed with TIGTA.
Highlights of Reference Number: 2010-30-060              WHAT TIGTA RECOMMENDED
to the Internal Revenue Service Commissioner
for the Small Business/Self-Employed Division.           TIGTA is not making any specific
                                                         recommendations in this report. However, a
IMPACT ON TAXPAYERS                                      draft of the report was provided to the IRS for
                                                         review and comment. The IRS had no
Internal Revenue Service (IRS) employees are
                                                         comments on the report.
required to stop an interview if the taxpayer
requests to consult with a representative and
may not bypass a representative without
supervisory approval. Between October 2008
and September 2009, there were at least four
instances in which employees improperly
bypassed taxpayer representatives.
WHY TIGTA DID THE AUDIT
This audit was initiated because TIGTA is
required to annually report on the IRS’
compliance with Internal Revenue Code
Sections 7521(b)(2) and (c). The overall
objective of this audit was to determine whether
the IRS complied with the legal guidelines
addressing the direct contact of taxpayers and
their representatives.
WHAT TIGTA FOUND
This is the twelfth year in which TIGTA has
reported its inability to give an opinion on how
well the IRS is complying with the Internal
Revenue Code restrictions on direct contact
because of limitations with the IRS’
management information systems. In
considering the significance of this limitation, it is
important to recognize that the evidence we
have obtained and evaluated over the years
suggests potential direct contact violations are
very small considering that thousands of IRS
enforcement personnel routinely interact with
millions of taxpayers and their representatives
each year.
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             June 3, 2010


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Fiscal Year 2010 Statutory Review of Restrictions
                             on Directly Contacting Taxpayers (Audit # 200930043)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) complied with legal guidelines addressing the direct contact of taxpayers and their
 representatives, as set forth in Internal Revenue Code Sections 7521(b)(2) and (c). The Treasury
 Inspector General for Tax Administration is statutorily required to conduct this audit.
 Although we made no recommendations in this report, we did provide IRS officials an
 opportunity to review the draft report. IRS management did not provide us with any report
 comments.
 Copies of this report are also being sent to the IRS managers affected by the report results.
 Please contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Assistant
 Inspector General for Audit (Compliance and Enforcement Operations), at (202) 622-8510.
                                          Fiscal Year 2010 Statutory Review of
                                      Restrictions on Directly Contacting Taxpayers




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Agency Level Internal Control Activities Help Ensure Compliance
          With Direct Contact Provisions ....................................................................Page 3
          Steps Have Been Taken to Strengthen Controls at the Operational
          Level .............................................................................................................Page 6

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 8
          Appendix II – Major Contributors to This Report ........................................Page 10
          Appendix III – Report Distribution List .......................................................Page 11
             Fiscal Year 2010 Statutory Review of
         Restrictions on Directly Contacting Taxpayers




                Abbreviations

I.R.C.    Internal Revenue Code
IRM       Internal Revenue Manual
IRS       Internal Revenue Service
RRA 98    Restructuring and Reform Act of 1998
                                   Fiscal Year 2010 Statutory Review of
                               Restrictions on Directly Contacting Taxpayers




                                            Background

The Omnibus Taxpayer Bill of Rights, 1 enacted in 1988,
created a number of safeguards to protect taxpayers                     The Treasury Inspector General
being interviewed by Internal Revenue Service (IRS)                         for Tax Administration is
                                                                         required to annually evaluate
employees as part of an examination or investigation.
                                                                         the IRS’ compliance with the
Specifically, IRS employees are required by the direct                    direct contact provisions of
contact provisions of Internal Revenue Code (I.R.C.)                      I.R.C. §§ 7521(b)(2) and (c).
Sections (§§) 7521(b)(2) and (c) to:
    •   Stop a taxpayer interview whenever a taxpayer requests to consult with a representative.
    •   Obtain their immediate supervisor’s approval to contact the taxpayer instead of the
        representative if the representative is responsible for unreasonably delaying the
        completion of an examination or investigation.
A taxpayer can file a civil suit against the IRS if an IRS employee intentionally disregards these
provisions by denying a taxpayer the right to appropriate representation.
On July 22, 1998, the President signed into law the IRS Restructuring and Reform Act of 1998
(RRA 98), 2 which required the IRS to revise Your Rights as a Taxpayer (Publication 1) to inform
taxpayers of their rights to 1) be represented at interviews and 2) suspend an interview pursuant
to I.R.C. § 7521(b)(2). In addition, Congress included another provision to the RRA 98 that
requires the Treasury Inspector General for Tax Administration to annually evaluate the IRS’
compliance with the direct contact provisions. Senate Committee on Finance Report 105-174
(dated April 22, 1998), related to the RRA 98, stated that Congress believes taxpayers should be
more fully informed of their rights to representation in dealing with the IRS and those rights
should be respected.
This review was performed at the IRS National Headquarters in the offices of the Commissioner
and the National Taxpayer Advocate in Washington, D.C., and in the Small Business/
Self-Employed Division Headquarters in New Carrollton, Maryland, during the period July 2009
through February 2010. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed

1
 Pub. L. No. 100-647, 102 Stat. 3730 (1988) (codified as amended in scattered sections of 5 U.S.C. and 26 U.S.C.).
2
 Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                                                                           Page 1
                              Fiscal Year 2010 Statutory Review of
                          Restrictions on Directly Contacting Taxpayers



information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                       Page 2
                                  Fiscal Year 2010 Statutory Review of
                              Restrictions on Directly Contacting Taxpayers




                                   Results of Review

This is the twelfth year reporting that neither we nor the IRS know with any degree of
preciseness how well it is complying with direct contact provisions of the I.R.C. because of
limitations with its management information systems. In considering the significance of this
limitation, it is important to recognize that the evidence we have obtained and evaluated over the
years suggests potential direct contact violations are very small considering that thousands of
IRS enforcement personnel routinely interact with millions of taxpayers and their representatives
each year. It is equally important to recognize the IRS has policies, procedures, and techniques
(internal control activities) in place at the agency and operational levels that are designed to help
ensure its personnel adhere to the direct contact provisions of I.R.C. §§ 7521(b)(2) and (c).

Agency Level Internal Control Activities Help Ensure Compliance With
Direct Contact Provisions
According to the Government Accountability Office Standards for Internal Control in the
Federal Government, 3 internal control activities are the policies, procedural requirements, and
techniques that enforce management directives, such as complying with applicable laws and
regulations. Specifically, control activities are designed to help ensure risks that could affect
achieving desired outcomes are identified, evaluated, and addressed.
At the top of the agency, the IRS’ mission statement and supporting policy statements provide
guidance nationwide to IRS compliance and other personnel who have contact with taxpayers.
Figure 1 provides an example of IRS Policy Statement 5-2, which contains the core principles
that underscore the importance of protecting taxpayer rights as well as providing the public with
quality, courteous, and effective assistance in collecting unpaid taxes.




3
    GAO/AIMD-00-21.3.1, dated November 1999.
                                                                                              Page 3
                                     Fiscal Year 2010 Statutory Review of
                                 Restrictions on Directly Contacting Taxpayers



                    Figure 1: Core Principles for Collecting Unpaid Taxes

                                   Excerpt From IRS Policy Statement 5-2

                Principles                                                    Description

     OVERARCHING PRINCIPLES                      All our decisions about collecting must be guided by these principles.
                                                 To the extent that they are, we will succeed in our mission.

      SERVICE AND ASSISTANCE

 All taxpayers are entitled to courteous,        We will actively assist taxpayers who try to comply with the law and
 responsive, and effective service and           work to continually improve the quality of our systems and service to
 assistance in all their dealings with the       meet the needs of our customers. All taxpayers, whether delinquent or
 Service.                                        fully compliant, are entitled to prompt and professional service
                                                 whenever they deal with Service employees.

           TAXPAYER RIGHTS

 We will observe taxpayers’ rights,              This affirms our commitment to observe both the spirit as well as the
 including their rights to privacy and to fair   letter of all legal requirements, including the Taxpayer Bill of Rights I
 and courteous treatment.                        and II and the IRS Restructuring and Reform Act of 1998. Taxpayers
                                                 will be protected from unauthorized disclosure of information.

              COMPLIANCE

  The public trust requires us to ensure that    The public as a whole is our customer, not just delinquent taxpayers.
  all taxpayers promptly file their returns      Our customers expect us to promote voluntary compliance by ensuring
  and pay the proper amount of tax,              that all promptly pay their fair share.
  regardless of the amount owed.

           CASE RESOLUTION

 While we will actively assist taxpayers to      All taxpayers are required to pay by the due date of the return. From a
 comply, we will also take appropriate           broad range of collecting tools, employees will select the one(s) most
 enforcement actions when warranted to           appropriate for each case. Case resolution, including actions such as
 resolve the delinquency. To resolve a           lien, levy, seizure of assets, installment agreement, offer in
 case, good judgment is needed to make           compromise, substitute for return, summons, and IRC 6020(b), are
 sound decisions on the appropriate action       important elements of an effective compliance program. When it is
 needed.                                         appropriate to take such actions, it should be done promptly, yet
                                                 judiciously, and based on the facts of each case.

Source: Excerpt from IRS Policy Statement 5-2 – Collecting Principles.




                                                                                                                 Page 4
                                      Fiscal Year 2010 Statutory Review of
                                  Restrictions on Directly Contacting Taxpayers



To supplement agency level mission and policy statements, the IRS uses, and periodically
updates, the Internal Revenue Manual (IRM) 4 and numerous taxpayer publications. Both the
IRM and taxpayer publications are available online and are designed to provide guidance
nationwide to IRS personnel and taxpayers alike.

The IRM and taxpayer publications are important control components
From a control perspective, both the IRM and taxpayer publications are important because they
provide detailed explanations and instructions of the statutory, business, and administrative
procedures the IRS follows in administering the tax laws, including the direct contact provisions
of I.R.C. §§ 7521(b)(2) and (c). For example, the IRS uses Publication 1 as the main document
to keep taxpayers informed of their rights and to explain the examination, collection, appeals,
and refund processes. Publication 1 also includes the following information concerning
taxpayers’ rights to be represented at interviews with the IRS and to suspend an interview
pursuant to I.R.C. § 7521(b)(2).
       You may either represent yourself or, with proper written authorization, have someone else
       represent you in your place. Your representative must be a person allowed to practice before
       the IRS, such as an attorney, certified public accountant, or enrolled agent. If you are in an
       interview and ask to consult such a person, then we must stop and reschedule the interview in
       most cases.
The IRS has also included information on these rights in other publications, such as:
       •   Your Federal Income Tax (Publication 17).
       •   Tax Guide for Small Business (Publication 334).
       •   Examination of Returns, Appeal Rights, and Claims for Refund (Publication 556).
       •   The Examination Process (Publication 3498).
In addition, the IRS uses Practice Before the IRS and Power of Attorney (Publication 947) to
inform taxpayers of their representatives’ responsibilities and to notify taxpayers that the IRS has
the authority to bypass representatives that are uncooperative. Specifically, Publication 947
states “After a valid power of attorney is filed, the IRS will recognize your representative.
However, if it appears the representative is responsible for unreasonably delaying or hindering
the prompt disposition of an IRS matter by failing to furnish, after repeated requests,
non-privileged information, the IRS can contact you directly.”




4
    A manual containing the IRS’ internal guidelines.
                                                                                              Page 5
                                   Fiscal Year 2010 Statutory Review of
                               Restrictions on Directly Contacting Taxpayers



Steps Have Been Taken to Strengthen Controls at the Operational
Level
At the operational level, the first-line managers over IRS collectors and examiners (enforcement
personnel) are a key control because they are responsible for ensuring that the personnel they
supervise follow procedures and that their work meets acceptable standards. To assist managers
in ensuring procedures are followed and standards are met, the IRM requires managers to
conduct reviews over the work of the personnel they supervise, both while it is in process and
after it is completed. These control techniques, as we have previously reported, help identify
problems so prompt corrective actions, if needed, can be taken.
To its credit, the IRS recognized the critical role first-line managers have in its control activities
and have taken steps to reinforce upon managers the need to address adherence to the direct
contact provisions with the personnel they supervise. For example, the Small Business/
Self-Employed Division issued a memorandum to its first-line managers in Fiscal Years 2001
and 2002 directing them to “take whatever steps are necessary (including discussion in group
meetings, case reviews, workload reviews, on-the-job visits, and taxpayer/POA [Power of
Attorney] inquiries) to ensure these requirements [the requirements mandated by I.R.C.
§§ 7521(b)(2) and (c)] are understood and followed by employees.”
In August 2006, the IRS updated the IRM to include specific directions for managers in its
Collection function on how to ensure compliance with the direct contact provisions of I.R.C.
§§ 7521(b)(2) and (c). In addition, the IRS committed to updating the IRM for managers of its
Examination function in response to a recommendation we made in our report last year. 5 The
updates to the Examination function’s IRM are scheduled to be completed by June 2010.
Assuming first-line managers adhere to the IRM guidelines, we believe there are at least three
reasons that support the need and importance of emphasizing the direct contact provisions of
I.R.C. §§ 7521(b)(2) and (c) as part of the manager’s supervision over the work of enforcement
personnel.

There are important reasons first-line managers should emphasize adherence to
the direct contact provisions of the I.R.C.
First, thousands of enforcement personnel routinely interact with millions of taxpayers and their
representatives each year to resolve a variety of tax issues. These interactions can become
contentious and time consuming for both the IRS and taxpayers, especially in situations where
there are strong opposing opinions on how best to resolve a particular tax issue. As a result, the
sheer number and types of interactions enforcement personnel have with taxpayers are more
likely to place the IRS at greater risk of jeopardizing the direct contact provisions when


5
 Fiscal Year 2009 Statutory Review of Restrictions on Directly Contacting Taxpayers (Reference
Number 2009-30-054, dated March 24, 2009).
                                                                                                 Page 6
                                  Fiscal Year 2010 Statutory Review of
                              Restrictions on Directly Contacting Taxpayers



compared with the interactions that other IRS personnel have with taxpayers, such as those
involved with customer service operations.
Second, the IRS cannot tell us with any degree of preciseness how well it is complying with
direct contact provisions of I.R.C. §§ 7521(b)(2) and (c) because of limitations with its
management information systems. As we reported in past years, neither the Taxpayer
Advocate’s Management Information System 6 nor the IRS Commissioner’s Information
Tracking System 7 is capable of readily identifying instances in which IRS personnel denied a
taxpayer’s right to representation or bypassed their representative without proper approval.
Despite this limitation, there is evidence that potential violations occur, although the number is a
very small number compared to the millions of taxpayer interactions that can take place
annually.
For example, taxpayer complaints that allege IRS employees bypassed their representatives and
contacted them directly are tracked on the Performance and Results Information System 8 by the
Treasury Inspector General for Tax Administration Office of Investigations. The Office of
Investigations closed 13 direct contact complaint/investigation cases between October 2008 and
September 2009. In three substantiated complaints, ************1**********************
*********************improperly bypassed taxpayer representatives and were counseled or
reprimanded for their actions. In addition, we judgmentally sampled 30 of 12,155 examinations
that were closed by IRS field examiners in Fiscal Year 2009 and found *********1**********
****************************************************************************
****************************************************************************
******************.
Third, the requirement of having first-line managers emphasize the direct contact provisions is
consistent with the Government Accountability Office Standards for Internal Control in the
Federal Government. Among other things, the standards specify that control activities should
include techniques that ensure management directives are followed.




6
  The Taxpayer Advocate Management Information System is an electronic database and case inventory control
system used by Taxpayer Advocate Service function employees.
7
  The Information Tracking System is a system used by the IRS to control and track information and
correspondence.
8
  The Performance and Results Information System is a management information system that provides the Treasury
Inspector General for Tax Administration with the ability to manage complaints received and investigations
initiated.
                                                                                                       Page 7
                                  Fiscal Year 2010 Statutory Review of
                              Restrictions on Directly Contacting Taxpayers



                                                                                              Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS complied with legal
guidelines addressing the direct contact of taxpayers and their representatives as set forth in
I.R.C. §§ 7521(b)(2) and (c).
To accomplish this objective, we:
I.      Interviewed IRS management personnel in the Small Business/Self-Employed Division
        to determine that the IRS neither has, nor plans to implement, a system or process to
        identify or track cases in which taxpayers have requested to consult with a representative
        or in which an IRS employee bypassed a representative.
        A. Reviewed a judgmental sample of 30 Fiscal Year 2009 closed individual Small
           Business/Self-Employed cases where taxpayers had a Power of Attorney on file
           during their examination. Our sample was selected from a population of
           12,155 taxpayers meeting the criteria above. We chose a judgmental sample because
           we did not intend to project our results to the population.
II.     Interviewed various IRS and Treasury Inspector General for Tax Administration
        personnel responsible for the Taxpayer Advocate Management Information System, 1 the
        Information Tracking System, 2 and the Performance and Results Information System 3 to
        determine if there is a system to track taxpayer complaints relating to violations of the
        direct contact provisions of the law.
        A. Identified 13 direct contact complaint/investigation cases on the Performance and
           Results Information System closed by the Treasury Inspector General for Tax
           Administration Office of Investigations between October 2008 and September 2009.
        B. Obtained and reviewed the closed Office of Investigations case files to determine
           their validity and what actions were taken by the IRS as a result of the
           complaints/investigations.



1
  The Taxpayer Advocate Management Information System is an electronic database and case inventory control
system used by Taxpayer Advocate Service function employees.
2
  The Information Tracking System is a system used by the IRS to control and track information and
correspondence.
3
  The Performance and Results Information System is a management information system that provides the Treasury
Inspector General for Tax Administration with the ability to manage complaints received and investigations
initiated.
                                                                                                       Page 8
                                      Fiscal Year 2010 Statutory Review of
                                  Restrictions on Directly Contacting Taxpayers



III.       Obtained information on the actions taken by the IRS in response to I.R.C. §§ 7521(b)(2)
           and (c) to determine the impact on IRS programs.
           A. Reviewed all prior Treasury Inspector General for Tax Administration audit reports
              for the statutory direct contact reviews and summarized the audit results,
              recommendations, and corrective actions taken by the IRS.
           B. Reviewed historic and current IRM 4 sections to identify any updates made in
              response to I.R.C. §§ 7521(b)(2) and (c).
           C. Reviewed the IRWeb (i.e., IRS Intranet) to identify the impact I.R.C. §§ 7521(b)(2)
              and (c) have had recently on any IRS programs.
           D. Reviewed IRS.gov (the public IRS Internet site) and related IRS publications to
              identify how the IRS informs taxpayers of its prohibition against directly contacting
              taxpayers in certain situations.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective:
      • Agency level internal control activities.
         a. The IRS’ mission statement, supporting policy statements, and IRM guidelines that
            provide guidance to IRS employees to ensure compliance with direct contact
            provisions.
         b. Numerous publications that keep taxpayers informed of their rights.
      • Operational level internal control activities. First-line managers are required under IRM
        guidelines to address adherence to the direct contact provisions by the personnel they
        supervise.




4
    A manual containing the IRS’ internal guidelines.
                                                                                              Page 9
                             Fiscal Year 2010 Statutory Review of
                         Restrictions on Directly Contacting Taxpayers



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Director
Steven Stephens, Audit Manager
Julia Tai, Acting Audit Manager
Jean Kao, Lead Auditor
Joan Floyd, Senior Auditor




                                                                                      Page 10
                             Fiscal Year 2010 Statutory Review of
                         Restrictions on Directly Contacting Taxpayers



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Examination, Small Business/Self-Employed Division SE:S:E
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                    Page 11
